                                 Department of Energy
                                   Washington, DC 20585
                                          May 1, 2013


MEMORANDUM FOR THE ACTING SECRETARY

FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: External Peer Review Report on the Office of
                         Audits

The Government Auditing Standards, issued by the Comptroller General of the United States,
prescribe that all audit organizations must have an external peer review performed by an
independent organization once every 3years. Earlier this year, the Treasury Inspector General
for Tax Administration (TIGTA) conducted the required peer review of my Office of Audits. It
is our responsibility, under the Government Auditing Standards, to circulate the results of the
peer review to the responsible agency head and to the members of Congress.

Attached for your information is a copy of the recently completed peer review. I am pleased to
report that TIGTA found that the system of quality control for the audit organization had been
designed in accordance with professional standards and that it provided reasonable assurance that
those standards were adhered to in all material respects.

Please contact me if you have any questions about this report.

Attachment

cc: Acting Chief of Staff
                                                                                          Attachment

                                   DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20005



INSPECTOR GENERAL
      FOR TAX
  ADMINISTRATION



                                            March 28, 2013




       The Honorable Gregory H. Friedman
       Inspector General
       Department of Energy
       1000 Independence Avenue, SW.
       Washington, DC 20585

       Dear Mr. Friedman:

              We have reviewed the system of quality control in effect for the year ending
       September 30, 2012, for the audit organization of the Department of Energy’s (DOE)
       Office of Inspector General (OIG). A system of quality control encompasses the DOE
       OIG’s organizational structure, policies adopted, and procedures established that
       provide it with reasonable assurance of conforming to elements of quality control
       described in Government Auditing Standards. The DOE OIG is responsible for
       designing a system of quality control and complying with it to provide the DOE OIG with
       reasonable assurance of performing audits and reporting in conformity with applicable
       professional standards in all material respects. Our responsibility is to express an
       opinion on the design of the system of quality control and the DOE OIG’s compliance
       therewith based on our peer review.
              In our opinion, the system of quality control in effect for the year ending
       September 30, 2012, for the audit organization of the DOE OIG has been suitably
       designed and complied with to provide the DOE OIG with reasonable assurance of
       performing audits and reporting in conformity with applicable professional standards in
       all material respects. Federal audit organizations can receive a rating of Pass, Pass
       With Deficiencies, or Fail. The DOE OIG has received a peer review rating of Pass.
               Our review was conducted in accordance with Government Auditing Standards
       and guidelines established by the Council of the Inspectors General on Integrity and
       Efficiency (CIGIE). During our review, we interviewed DOE OIG personnel and
       obtained an understanding of the nature of the DOE OIG audit organization and the
       design of the DOE OIG’s system of quality control sufficient to assess the risks implicit
       in its audit function. Based on our assessments, we selected engagements and
       administrative files to test for conformity with professional standards and compliance
       with the DOE OIG’s system of quality control. The engagements selected represented
       a reasonable cross-section of the DOE OIG’s audit organization, with emphasis on
       higher risk engagements. Prior to issuing the review report, we met with DOE OIG
       management to discuss the results of our review. We believe that the procedures we
       performed provide a reasonable basis for our opinion.
                                                                             Attachment (continued)




                                             2


       In performing our review, we tested compliance with the DOE OIG’s quality
control policies and procedures to the extent we considered appropriate. These tests
covered the application of the DOE OIG’s policies and procedures on selected
engagements. Our review was based on selected tests; therefore, it would not
necessarily detect all weaknesses in the system of quality control or all instances of
noncompliance with it.
       There are inherent limitations in the effectiveness of any system of quality control
and, therefore, noncompliance with the system of quality control may occur and may not
be detected. Projection of any evaluation of a system of quality control to future periods
is subject to the risk that the system of quality control may become inadequate because
of changes in conditions, or because the degree of compliance with the policies or
procedures may deteriorate.
      Enclosure One to this report identifies the engagements that we reviewed.
Enclosure Two includes your response to the draft report.
       As is customary, we have issued a letter dated March 28, 2013, that sets forth
findings that were not considered to be of sufficient significance to affect the opinion
expressed in this report.
       In addition to reviewing the system of quality control to ensure adherence with
Government Auditing Standards, we applied certain limited procedures in accordance
with guidance established by the CIGIE related to the DOE OIG’s monitoring of
engagements performed by Independent Public Accountants (IPA) under contract
where the IPA served as the principal auditor. It should be noted that monitoring of
engagements performed by the IPA is not an audit and, therefore, is not subject to the
requirements of Government Auditing Standards. The purpose of our limited
procedures was to determine whether the DOE OIG had controls to ensure the IPA
performed contracted work in accordance with professional standards. We informed
DOE OIG management of the results of our limited review. Our objective was not to
express an opinion and, accordingly, we do not express an opinion on the DOE OIG’s
monitoring of work performed by the IPA.
       We appreciate the cooperation and assistance provided by your staff. The
timeliness of responses to questions and access to requested documentation was
extremely helpful in completing our review.

                                        Sincerely,




                                    J. Russell George
                                    Treasury Inspector
                                                                                Attachment (continued)




                                           3


SCOPE AND METHODOLOGY (Enclosure 1)

Scope and Methodology
We tested compliance with the DOE OIG audit organization’s system of quality
control to the extent we considered appropriate. These tests included a review of nine
of 74 audit and attestation reports issued during the period October 1, 2011 through
September 30, 2012, and semiannual reporting periods ending March 31, 2012 and
September 30, 2012. We also reviewed the internal quality control reviews performed
by the DOE OIG during this same period.
The sample of reports we reviewed also included DOE OIG’s monitoring of
engagements performed by the IPA where the IPA served as the principal auditor
during the period October 1, 2011 through September 30, 2012. During this period, the
DOE OIG contracted for the audit of its agency’s Fiscal Year 2011 financial statements.
The DOE OIG also contracted for certain other engagements that were to be performed
in accordance with Government Auditing Standards.
Reviewed Engagements and IPA Monitoring Files
We selected and reviewed the following audit reports (and workpapers) issued by the
DOE OIG:

  Report Number         Report Date                         Report Title
OAS-M-12-01             11/15/2011     The Federal Energy Regulatory Commission’s
                                       Unclassified Cyber Security Program - 2011
OAS-FS-12-02            11/15/2011     Department of Energy’s Fiscal Year 2011 Consolidated
                                       Financial Statements
OAS-L-12-05              4/23/2012     The Joint Actinide Shock Physics Experimental Research
                                       Facility at the Nevada National Security Site
OAS-V-12-06              5/9/2012      Audit Coverage of Cost Allowability for Princeton Plasma
                                       Physics Laboratory during Fiscal Years 2009-2010 under
                                       Department Energy Contract Numbers
                                       DE-AC02-76CH03073 and DE-AC02-09CH11466
OAS-RA-12-12             5/22/2012     The Department of Energy’s Clean Cities Alternative Fuel
                                       Vehicle Grant Program Funded under the American
                                       Recovery and Reinvestment Act
DOE/IG-0866              5/31/2012     Integrated Safety Management at Sandia National
                                       Laboratories
DOE/IG-0867              6/18/2012     The National Nuclear Security Administration
                                       Contractors’ Disability Compensation and Return-to-Work
                                       Programs
OAS-RA-12-13             6/25/2012     The Department of Energy’s Weatherization Assistance
                                       Program under the American Recovery and
                                       Reinvestment Act in the State of Ohio
OAS-RA-L-12-07           9/20/2012     The Department of Energy’s American Recovery and
                                       Reinvestment Act – Ohio State Energy Program
                                 Attachment (continued)




              4


DOE OIG Response (Enclosure 2)
